<html>
<title> - STAKEHOLDER PERSPECTIVES ON THE IMPORTANCE OF THE U.S. CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD</title>
<body><pre>[Senate Hearing 116-384]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-384
 
STAKEHOLDER PERSPECTIVES ON THE IMPORTANCE OF THE U.S. CHEMICAL SAFETY 
                     AND HAZARD INVESTIGATION BOARD

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 29, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 42-637PDF           WASHINGTON : 2021 
         
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 29, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Jahn, Chris, President and Chief Executive Officer, American 
  Chemistry Council..............................................     6
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrasso.........................................    12
        Senator Inhofe...........................................    13
        Senator Markey...........................................    13
Kadri, Shakeel, Executive Director and Chief Executive Officer, 
  Center for Chemical Process Safety, American Institute of 
  Chemical Engineers.............................................    15
    Prepared statement...........................................    17
    Responses to additional questions from Senator Barrasso......    21
Sallman, Steve, Assistant Director, Health, Safety, and 
  Environment, United Steelworkers...............................    24
    Prepared statement...........................................    26
    Response to an additional question from Senator Barrasso.....    38
    Responses to additional questions from Senator Markey........    38

                          ADDITIONAL MATERIAL

Letter to President Trump from the American Chemistry Council et 
  al., January 29, 2020..........................................    55
``Industrial Blast in Houston Kills at Least Two,'' by Elizabeth 
  Findell, the Wall Street Journal, January 24, 2020.............    56


STAKEHOLDER PERSPECTIVES ON THE IMPORTANCE OF THE U.S. CHEMICAL SAFETY 
                     AND HAZARD INVESTIGATION BOARD

                              ----------                              


                      WEDNESDAY, JANUARY 29, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Braun, 
Sullivan, Ernst, Cardin, Whitehouse, and Gillibrand.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today, we are going to consider Stakeholder Perspectives on 
the Importance of the United States Chemical Safety and Hazard 
Investigation Board, more commonly known as the Chemical Safety 
Board. Congress established the Chemical Safety Board in the 
Clean Air Act Amendments of 1990, and began funding the agency 
in 1998.
    Its mission is to investigate the facts, conditions, 
circumstances, and cause or probable cause of accidental 
chemical releases that result in a loss of life and serious 
injury or serious property damage. The board also issues 
corrective actions and recommendations for the purpose of 
improving chemical production, processing, handling, and 
storage.
    The board's main role is fact finding and analysis. For 
this reason, Congress excluded the board's findings, 
conclusions, and recommendations from use in litigation arising 
from accidents.
    The board serves a critical role in helping us understand 
why chemical accidents take place and the steps needed to 
ensure these accidents do not happen again. The board also 
plays an important role in helping the Environmental Protection 
Agency and the Occupational Safety and Health Administration, 
help them better protect the general public and workers. It is 
in everyone's interest to keep the board functioning.
    We should have a five member board, but currently, it is 
without a chairperson and has been reduced to two members. The 
term of one of those board members expires next Thursday, 
February 6th. By the end of the week, the Chemical Safety Board 
will have just one member. This is completely unacceptable.
    Last summer, President Trump nominated Dr. Katherine Lemos, 
a former official of the Federal Aviation Administration and 
the National Transportation Safety Board, to serve as 
chairperson of the board. In September, this Committee approved 
her nomination unanimously. The Democrat hold has prevented her 
nomination from clearing the Senate. If this continues for 
another week, it will deeply impair the ability of the board to 
conduct such critical business as deciding which investigations 
to open and the finalization of reports.
    These aren't my words; these words come from the EPA's 
Inspector General. We collectively cannot let that happen. We 
must get Dr. Lemos confirmed.
    I would note that over the weekend, a chemical explosion 
killed two workers at a manufacturing plant in Houston. It made 
the front page of the Wall Street Journal. Here it is: ``Blast 
at Houston manufacturing plant kills at least two.''
    We also need to fill the remaining vacancies on the 
Chemical Safety Board, because as I say, it is a five member 
board. This is an agency that needs strong, qualified, and 
impartial leadership.
    EPA's Inspector General has stated that historically, the 
Chemical Safety Board has been plagued with leadership issues, 
such as tension among board members, disputes over the 
chairperson's authorities, and complaints of alleged abuses by 
board members or the chairperson. In the middle of the Obama 
administration, the board's former chairperson resigned, and 
its General Counsel and Managing Director were later forced 
out.
    According to the EPA's Inspector General, management 
challenges continue to exist. More recent examples have 
included a board member filing public comments on an EPA 
proposed rule prior to the board adopting an official position 
on the rule. Also, a board member engaging in inappropriate 
communications with stakeholders. This behavior severely 
undermined morale among the board's personnel.
    In response to these incidents, the Inspector General has 
recommended that the board develop guidance on board member 
responsibilities. It has also recommended that the board 
request that Congress amend the Clean Air Act to strengthen the 
role and authority of the chairperson.
    For these reasons, I am glad that we have a panel of 
distinguished witnesses who represent the key stakeholders who 
are here with us today. They will help us better understand the 
board's role, mission, and performance, opportunities for 
improvement and reform, and how the work of the board is 
critical to their own safety initiatives.
    I want to thank you all for joining us today.
    I would like to turn to Ranking Member Carper for his 
opening comments.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thank for bringing us 
together.
    I was talking with our witnesses beforehand and said that 
this is a board that is small, not well known, but it is a 
little bit like my State, which punches above its weight. I am 
delighted that we are having a hearing and pleased to welcome 
each of you today.
    We are here today to discuss the importance of the Chemical 
Safety and Hazard Investigation Board, an important Federal 
agency charged with investigating industrial chemical 
accidents. Coming from a State that is synonymous with the name 
DuPont and chemistry, this is something that is worth a little 
bit of interest to us and to me.
    This board has investigated everything from BP oil spills 
to fatal refinery accidents to the chemical explosions caused 
by flooding during Hurricane Harvey in 2013.
    Regrettably, the current Administration has failed to 
support the agency financially. In fact, each and every one of 
the President's last three budget proposals have called for the 
board's elimination.
    Fortunately though, the Congress has rightfully rejected 
President Trump's repeated efforts to dismantle the Chemical 
Safety Board. After chemicals at the Arkema Facility in Texas 
exploded during Hurricane Harvey because there was no 
electricity to keep those chemicals cold, I asked the Chemical 
Safety Board to investigate. The board subsequently recommended 
that chemical facilities need to do more to plan for extreme 
weather events like hurricanes, like flooding, wildfires, that 
climate change is causing and will continue to cause.
    The Trump administration is not requiring anyone to plan 
for or mitigate against the effects of climate change. As we 
all know, this Administration is doing just the opposite. 
President Trump even rescinded the Obama administration's 
executive orders that required federally funded projects to be 
built to better withstand flood risks and help communities 
rebuild stronger and smarter following extreme weather damage.
    That leaves the Chemical Safety Board as the only Federal 
entity that is providing guidance to mitigate the costly and 
often dangerous impacts of climate change under this 
Administration. Similarly, the Chemical Safety Board is set to 
soon finalize the rule that will require immediate public 
reporting of chemical releases.
    By contrast, the Trump administration recently weakened an 
EPA rule that would better inform communities about the 
potential dangers of chemicals stored nearby. The current 
Administration also weakened a portion of the EPA rule that 
would have required the chemical industry to consider whether 
alternative chemicals or processes could reduce the 
consequences of a chemical safety accident.
    This EPA rule was developed after an explosion literally 
leveled the town of West, Texas. Not the western part of Texas; 
that is a town called West, Texas. It killed some 15 people in 
2013. Many of us remember that. The Chemical Safety Board 
investigated the incident and determined that different ways of 
handling the chemicals could have prevented the accident from 
happening in the first place.
    In addition to protecting communities, the Chemical Safety 
Board also plays a vital role in protecting workers. Right now, 
the board is reviewing seven serious chemical safety incidents 
that occurred in Texas, some of which resulted in worker 
fatalities. One of those incidents occurred just last week, 
when a chemical exploded at the Watson Chemical Facility in 
Houston, unfortunately claiming the life of one worker.
    Other recent incidents took place at refineries, some of 
which store hydrofluoric acid onsite. Hydrofluoric acid is so 
dangerous that it can quickly kill or hurt literally tens of 
thousands of people or more if a release occurred in a densely 
populated area.
    In fact, today the board is still investigating the massive 
explosion that occurred just north of where I live at the 
Philadelphia Energy Solutions Refinery in South Philadelphia, 
some 7 months ago. Thankfully, the explosion did not result in 
a large scale release of hydrofluoric acid, which could have 
caused mass casualties. I think the workers get great credit 
for actually stemming and preventing what could have been just 
a terrible disaster.
    The Trump administration has weakened several environmental 
and safety rules that protect workers, again, leaving the 
Chemical Safety Board as the sole voice protecting 
recommendations to industry that could help protect workers and 
communities.
    I believe that everyone here today agrees that the Chemical 
Safety Board must continue to be provided with the resources it 
needs to do its job. About that, there is little disagreement. 
High among the resources needed are five qualified, nominated, 
and confirmed board members, as the Chairman has mentioned.
    Next week, when Rick Engler's term expires, there will be 
only one board member left. Even if the only nominee this 
President has nominated to the board, Katherine Lemos, is 
confirmed before then, the board will again be left with only 
one member in August when Kristen Kulinowski's term expires.
    There are currently, as we know, 53 Republican Senators and 
only 47 Democrats. Our majority leader is free to schedule a 
vote to confirm Dr. Lemos anytime he wants, and frankly, I 
suspect he would have even more than 53 votes to do that.
    The majority leader has found time in his schedule, in our 
schedules, to confirm a whole lot of nominees. For example, he 
scheduled a vote to confirm Aurelia Skipwith, whose 
confirmation hearing in front of this Committee was on the 
exact same date as Katherine Lemos's.
    Let's set the record straight. The potential absence of a 
quorum at the Chemical Safety Board is, frankly, no one's fault 
except our President's, who has tried again and again to 
eliminate the agency entirely and failed for 3 years to 
nominate more than a single board member to serve.
    I still find galling the confirmation of Aurelia Skipwith, 
and it is hard to get it out of my system. I will just lay it 
out here again. Here was a nominee who refused to respond to 
appropriate questions that were asked of her in person, 
questions for the record, and never did. We still let that 
nomination go forward.
    I think that is a shame. That is a shame. If I were ever to 
have an opportunity to lead this Committee, I might not. We 
will try not to do that in the future.
    Thanks very much.
    Senator Barrasso. Senator Inhofe, I know you have a 
conflicting action as Chairman of the Armed Services Committee.
    Senator Inhofe. I appreciate it very much.
    Just a brief comment.
    I say to both my colleagues up here, I had a chance to come 
early and visit with all three of the witnesses today. The only 
question I would have is a question that I am sure will be 
answered in the opening statement of Mr. Jahn.
    I think I have the distinction of being the only person up 
here that is a member of this Committee who was actually an 
original cosponsor of the Amendment to the Clean Air Act back 
in 1990, and we were very supportive at that time. We are going 
to make sure that we do everything we can to correct the 
problem and to get a workable committee that we can get things 
done, so that will be our effort, I think, of all of us up 
here.
    Thank you, Mr. Chairman, for allowing me to get on the 
record.
    Senator Barrasso. Thank you very much, Senator Inhofe.
    Senator Carper. May I just say one more thing, Mr. 
Chairman?
    Mr. Chairman, I have been trying to schedule a meeting to 
meet for a couple of weeks now. There has been something 
getting in the way, so I am having a tough time clearing our 
schedule.
    My hope is one of the things that we will have a chance to 
talk about face to face is this issue, this board, and how we 
can resolve the nominating process and get the job done. He 
wants to, and I want to, as well.
    Senator Barrasso. I would point out, in terms of things 
that are getting in the way right now, it is also getting in 
the way of spending time on the Senate floor getting anyone 
confirmed to any position. So the idea that our nominee Lemos, 
who has gotten through this Committee unanimously, has now been 
blocked on the Senate, or as someone had mentioned, should not 
go by unanimous consent, and should be called up and go through 
a whole process because of a previous nominee, Ms. Skipwith, 
seems to not be the appropriate issue to what we should be 
fighting that old battle on.
    When we have somebody who by history, somebody that goes 
through the Committee unanimously, usually goes by unanimous 
consent to the floor, not file cloture and go through multiple 
series of votes. But if we really want to move forward with 
getting this nominee in place by the time that we are down to 
one member of the board, then any extension of the activity on 
the floor right now and the delays that it will cause will 
prevent either way getting that nomination filled.
    So with that, I would like to turn to our witnesses.
    Today, we are joined by Mr. Chris Jahn, who is President 
and Chief Executive Officer of the American Chemistry Council. 
He is very knowledgeable about these issues.
    Nearly two decades ago, Chris sat on these benches behind 
us as a legislative assistant. He was responsible for 
environmental policy at that time. He continues to work along 
that line. It is always good to see staff doing well.
    Also joining us is Mr. Shakeel Kadri, who is the Executive 
Director and Chief Executive Officer of the Center for Chemical 
Process Safety at the American Institute of Chemical Engineers, 
and Mr. Steve Sallman, who is the Assistant Director of the 
Health, Safety, and Environment Department at the United 
Steelworkers.
    I want to welcome all of you. I want to remind you that 
your full, written testimony will be made part of our official 
hearing record today, so we please ask that you keep your 
statements to 5 minutes so that we may have time for questions.
    I look forward to hearing your testimony, and with that, we 
will start with Mr. Jahn.

STATEMENT OF CHRIS JAHN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                   AMERICAN CHEMISTRY COUNCIL

    Mr. Jahn. Thank you, Mr. Chairman. I appreciate you and 
Ranking Member Carper for holding today's hearing on the 
Chemical Safety Board.
    The CSB has the important job of independently 
investigating major accidents and making recommendations. The 
CSB's findings are very influential and a catalyst for safety 
improvements and ensure that the American Chemistry Council 
strongly supports the work of the CSB.
    ACC believes the board plays a much needed role for 
safeguarding the public, the environment, and chemical 
facilities. In order to be effective in that role, the CSB 
needs the full five board members that Congress envisioned when 
it created the CSB. Furthermore, those board members should 
have a broad range of experience, particularly expertise in 
manufacturing operations, processes, and procedures that are 
essential to the safe operation of chemical facilities.
    As you know, our industry is undergoing a major 
transformation to a new era of unprecedented growth and 
investment that is driven by new domestic sources of safe, 
affordable, and abundant natural gas. More than 340 new 
chemical industry projects valued at over $200 billion worth of 
investment have been announced for construction in the past 
decade, just here in the United States.
    So as we continue to build on this new investment, we must 
make sure that growth does not come at the expense of safety, 
either of our workers, our communities, or our customers. 
Safety must remain at the forefront of everything that we do.
    Our commitment to safety as an industry is embodied in 
ACC's Responsible Care Program, the chemical industry's leading 
environmental, health, safety, and security performance 
initiative. Our program reflects a commitment by our member and 
our partner companies to prevent and mitigate the impact of 
chemical incidents.
    One important component of responsible care calls on ACC 
members to evaluate the circumstances of each incident and 
learn from their own experiences as well as the experiences of 
other companies. To help collect and apply these learnings, ACC 
created regional networks all across the country that bring 
site safety personnel together on a regular basis to share 
process safety knowledge, effective practices and solutions, 
and encourage peer to peer networking.
    More recently, we brought together a special group to 
examine the recent incidents that occurred in the Houston, 
Texas, area. The group made several recommendations, including 
ways to enhance air quality monitoring capabilities, emergency 
response, and the design and performance of above ground 
storage tanks. We take every incident seriously, and we seek to 
learn from each one by sharing information on the factors that 
led to the incident and identifying excellent practices to 
prevent similar incidents from happening in the future.
    To that end, we work with the CSB to ensure that there is 
broad awareness of the board's recommendations within our 
industry, and it is why we have undertaken safety initiatives 
that complement but do not replace the board's work.
    ACC is committed to working with the Administration and 
Congress to ensure that we have a fully functioning and fully 
staffed CSB. Unfortunately, there is a very real prospect that 
has been pointed out this morning, that we very soon could have 
only one member of the board, a scenario which ACC and our 
members would like to avoid.
    That is why we urge the Administration to nominate 
additional, well qualified industry and process safety experts 
to serve on the board, and we ask the Senate to confirm these 
nominees as soon as possible.
    I close my remarks by thanking the current and past board 
members for their work to promote sound chemical safety 
practices. We look forward to working with you and with the 
Administration to fill the open positions at the CSB with 
capable and committed candidates and ensure the board has the 
resources it needs to fulfill its mission.
    Thank you.
    [The prepared statement of Mr. Jahn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Barrasso. Thank you very much, Mr. Jahn.
    Mr. Kadri.

   STATEMENT OF SHAKEEL KADRI, EXECUTIVE DIRECTOR AND CHIEF 
EXECUTIVE OFFICER, CENTER FOR CHEMICAL PROCESS SAFETY, AMERICAN 
                INSTITUTE OF CHEMICAL ENGINEERS

    Mr. Kadri. Good morning Chairman Barrasso, Ranking Member 
Carper. Thank you for giving me the opportunity to talk about 
the mission and the role of CSB.
    First, a little bit about my background. I am a chemical 
engineer. I have been working nearly 40 years in the industry 
in implementing a variety of engineering operation, 
environmental health, and process safety projects with the aim 
to reduce or eliminate process safety incidents, as well as 
environmental impacts.
    I personally feel very strongly about this issue. In my 40 
year journey, I have closely seen benefits be achieved from 
sound process safety implementation and severe impact from 
incidents where process safety failed. My current organization, 
the Center for Chemical Process Safety, or CCPS, is a 
technology alliance of the American Institute of Chemical 
Engineers.
    AIChE is a 110 year old non-profit technical organization 
which is working for a safe, connected, inclusive community. 
CCPS is funded by corporate members, as well as self-funded 
through conferences, education, et cetera, as well as through 
the AIChE Foundation. Established in 1985 in response to the 
Bhopal gas tragedy in India, CCPS has about 225 corporate 
members around the world who are dedicated to preventing 
process safety incidents and improve process safety performance 
across the industry.
    Over the past 35 years, CCPS has published more than a 
hundred books on the subject of process safety that are used as 
good practice guidance reference material. Our chemical and 
chemical processing industries stimulates the economy with high 
paying jobs and development of new and innovative materials 
that enables other U.S. companies and sectors to lead the world 
in scientific and technological advancement. We are a net 
exporter of U.S. products.
    Many of these businesses, however, are dependent on the use 
of hazardous material and operate with the daunting challenges 
of preventing catastrophic accidents. Such accidents, though 
rare, have severe and far reaching consequences. Given this 
rarity, many companies often lack in house expertise of self-
investigation, and concerns about potential liability inhibit 
willingness to share lessons learned.
    Recognizing these issues, Congress created the Chemical 
Safety Board to provide all chemical users and producers the 
expertise needed to investigate major incidents and disseminate 
lessons learned, best practices, and technologies, with the 
common goal of minimizing and eliminating catastrophic 
incidents.
    AIChE believes that this is a competence that must be 
maintained and a need that we collectively must continue to 
address. We urge you to provide and continue funding for the 
Chemical Safety Board so that they may continue to provide this 
vital service.
    CSB has become an effective and important partner to our 
country's process industry, and it is this chemical energy and 
related companies that are so essential to our Nation's 
continued economic development and competitiveness. CSB has 
investigated more than 130 major chemical incidents across the 
country, has issued 841 safety recommendations, of which 83 
percent of them are already closed.
    The CSB safety reports, bulletins, and videos are widely 
used and cited by the industry community, academia, 
professional associations, first responders, labor, and 
community leaders. In fact, CSB's 68 videos have received 6.4 
million views, and its YouTube channel has nearly 20,000 
followers.
    We believe that the CSB plays a critical role in keeping 
Americans safe and strengthening the performance of our 
industry.
    Thank you very much.
    [The prepared statement of Mr. Kadri follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Well, thank you very much for your 
thoughtful testimony. We appreciate your being here today, and 
we will be back with questions in a few moments.
    Mr. Sallman, could I call on you, please?

STATEMENT OF STEVE SALLMAN, ASSISTANT DIRECTOR, HEALTH, SAFETY, 
              AND ENVIRONMENT, UNITED STEELWORKERS

    Mr. Sallman. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. Thank you for the 
opportunity to testify today.
    Our union is the largest industrial union in North America, 
representing 850,000 members across a wide variety of 
manufacturing and service sectors. Most relevant for this 
hearing, we are the predominant union in oil refining, 
chemicals, rubber, plastics, paper, steel, and other metals. 
Many of the CSB investigations have taken place at facilities 
represented by our union.
    Our union believes that every worker deserves a safe 
workplace. The CSB's mission and investigations are imperative 
to reaching that goal.
    The importance of the CSB is prominent with us. We want to 
emphasize four major points: The importance of the CSB, the 
need to fill vacant seats on the board, the necessity of 
appropriate funding, and the need to have the agency 
sufficiently staffed to investigate accidents. The CSB 
investigations and videos have prevented future injuries and 
saved lives.
    My first experience with the CSB involved a triple fatality 
at a paper mill. In July 2008, a tank containing a mixture of 
recycled paper pulp and water exploded, killing three workers. 
The CSB found the contents of the tank contained highly 
flammable hydrogen gas, a byproduct of bacterial decomposition 
of organic fiber waste inside the tank.
    One of the CSB's recommendations was using combustible gas 
monitoring prior to performing hot work. The CSB eventually 
developed a safety bulletin on the hazards of hot work.
    Although we were pleased with the CSB issuing a safety 
bulletin, we were disappointed when they were unable to produce 
a full report and video about the incident due to understaffing 
at that moment of CSB history.
    In February 2017, I again worked with the CSB on another 
triple fatality. Their investigation, in part, exposed how 
OSHA's Process Safety Management Standard is too limited in 
scope.
    CSB reports and videos have led to changes in industry 
practice and regulations. The CSB reports and videos are 
applicable across many industries. We show the CSB produced 
videos at our trainings and safety meetings to prevent future 
incidents.
    In order for the CSB to produce high quality investigations 
and videos, the board must have members who support the 
mission. The board's primary function is to deploy 
investigative staff to perform root and contributing cause 
investigations. Board seats need to be filled with a diverse 
slate of qualified individuals.
    There is longstanding bipartisan support in Congress and 
among a number of labor and industry stakeholders for a fully 
funded CSB. However, over the last several years, the 
Administration has proposed eliminating funding for the CSB. 
The agency has fewer than 50 staff and a budget of $12 million 
to accomplish an important mission.
    Our union has worked hard to ensure that Members of 
Congress understand how important the work of this small agency 
is. Historically, the quality of the CSB reports have been 
high, and the dedication of the professional staff is obvious, 
in our experience.
    However, the CSB currently does not have sufficient staff 
of investigators. We are concerned that understaffing will lead 
to an increased backlog of open investigations and the 
inability to deploy to needed investigations. Our union 
supports CSB investigators, and the value, the thoroughness of 
the investigations they conduct.
    In conclusion, our union hopes that all the members of this 
Committee understand the importance of this small agency. 
Bipartisan support has contributed to the CSB's success and its 
mission to make the Nation's workplaces and communities safer.
    We look forward to continuing to work with lawmakers and 
the CSB to protect our members, communities, and prevent future 
incidents.
    Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Sallman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Well, we all, in a bipartisan way, 
appreciate all of you being here today, and especially the 
attention you have to the urgency of the issue.
    Mr. Jahn, can you explain how the work of the Chemical 
Safety Board complements the safety initiatives of your own 
organization, and vice versa? Because it works both ways.
    Mr. Jahn. Certainly. I am happy to discuss that, Mr. 
Chairman. As I mentioned in my opening testimony, our 
Responsible Care Program actually has a process safety code in 
it that requires them to look at their site specific risks and 
develop plans to mitigate that.
    The CSB's work, in terms of its investigations and its 
studies, very carefully informs our members of those risks and 
previous incidents, and allows them to take appropriate steps 
to try to mitigate that in the future. Not only does that help 
in terms of the program itself, but we also, as I did mention, 
we have seven regional networks within ACC where we share this 
process safety information among those site safety 
professionals.
    We share that, and we also have topical workshops. We have 
a variety of other ways to educate our members on the CSB's 
work.
    We also engage them through their stakeholder outreach. We 
just had a meeting with the CSB to share some additional 
information on responsible care as recently as 2 weeks ago, I 
believe, so we are actively engaged with them. Again, we very 
much feel like their efforts complement what we do, but do not 
duplicate them.
    Senator Barrasso. Mr. Kadri, can I ask you the same 
question; how the work of your organization complements the 
safety initiatives with the Chemical Safety Board, and vice 
versa?
    Mr. Kadri. Absolutely. Thank you. If you look at the 
mission of the Chemical Safety Board, it is really to prevent 
process safety incidents by learning from it.
    Similarly, if I look at the mission of my organization, it 
is to prevent major process safety incidents. We do it in two 
different ways, but really come to the same conclusion. What 
the Chemical Safety Board does is really to understand what 
went wrong, create the learning, and then bring out the help to 
the industry for the future to improve.
    What CCPS does is to really do more forward looking, as we 
understand the risk, identify the safeguards, and make sure 
that we prevent those incidents. Really, what we have been 
doing with the Chemical Safety Board is taking a lot of the 
learning, many of our books have really taken the learning from 
the Chemical Safety Board and included it into those learnings.
    Many of those incidents have been included in our process 
safety incident data base, and at the same time, we also help 
CSB in implementing some of their recommendations. The one I 
would mention here is, one actually Senator Carper just talked 
about is Hurricane Harvey. The extreme weather response and 
extreme weather risk involved, Chemical Safety Board actually 
asked CCPS to develop guidance so that the industry can kind of 
look ahead of time and be prepared, so that has been doing.
    Second one, actually, a few years back, the Chemical Safety 
Board asked that we initiate chemical process safety education 
in undergraduate chemical engineering organizations. That 
recommendation has actually included now, that now that process 
safety is applied in all engineering curriculum.
    Senator Barrasso. Thank you.
    Mr. Jahn, here is another question. Looking at the last 
past decade, the EPA's Inspector General and the House 
Committee on Oversight and Government Reform have identified 
numerous instances of mismanagement at that Chemical Safety 
Board. Could you explain why it is so important that we have a 
strong, qualified, impartial leadership at that level at the 
Chemical Safety Board?
    Mr. Jahn. Again, the process safety information that they 
share with our industry is vital in terms of our industry's 
performance. So we agree that the CSB, its board members, and 
including its chair, should be held accountable for their work 
and their performance.
    Just to demonstrate our industry's commitment to 
accountability and transparency, and one thing I did not 
mention in my earlier answer was that we require members as 
part of responsible care to record and report process safety, 
emissions data, water consumption, and other metrics that we 
then report on our website, publicly. So we live by that, and 
we feel like the government partners that we work with should 
have similar accountability.
    Senator Barrasso. Well, thank you all.
    We will have a chance to hear from some of the other 
members.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I don't ask a lot of yes or no questions, but I am going to 
just ask a couple of them today, so we can move along.
    We will start with you, Chris. Would your organization 
oppose a proposal to completely eliminate the Chemical Safety 
Board like the proposals that were included in the President's 
last three budgets?
    Mr. Jahn. We would not support the elimination of the 
Chemical Safety Board.
    Senator Carper. Thank you.
    Mr. Kadri.
    Mr. Kadri. We will not support that recommendation.
    Senator Carper. Steve.
    Mr. Sallman. We would not support that.
    Senator Carper. OK, thank you. I have no more questions.
    No, I have more questions.
    [Laughter.]
    Senator Carper. Second question: Do you all agree that it 
would be best if the, well, for everybody, the folks that work 
there, the owners, stakeholders, shareholders, people in the 
communities, first responders, do you all believe it would be 
best if the board had five qualified, independent, confirmed 
board members?
    Mr. Jahn. Yes, sir, and I would add just that, again, from 
our experience, we do not have someone on the board right now 
who has industry safety process experience, so I would add that 
caveat.
    Senator Carper. Thank you.
    Mr. Kadri.
    Mr. Kadri. I will actually add one more thing to the 
question that Senator Barrasso asked. It is not only that you 
need a strong and technical expertise, but you also need the 
impartiality. Because the recommendation and the outcome coming 
out from the board has far reaching impact, and maintaining the 
impartiality will create credibility and gives that 
implementation much more success.
    Senator Carper. All right, thanks for that.
    Mr. Sallman. I would like to add that the board should be 
made up of a diverse slate of people with process experience, 
investigative experience, and dealing with various 
stakeholders, so that everybody brings a different view to the 
board to make it well rounded. That experience, I believe, and 
we believe, would help this board succeed in being able to view 
what failed, how we could improve to go forward with lessons 
learned, and prevent those tragedies from happening again.
    Senator Carper. OK, thank you.
    One more, if we could, and this is for each of you. Do you 
believe that the President's repeated efforts to eliminate the 
agency would probably make it harder to find qualified and 
independent experts who are willing to serve, or easier?
    Mr. Jahn. Our position is that the CSB, not only does it 
need to be full of board members and fully staffed, but it has 
to have the resources it needs to do its job, so it needs to be 
fully funded; an appropriate budget and human resources are 
absolutely necessary.
    Senator Carper. Thank you.
    Same question, Mr. Kadri.
    Mr. Kadri. Yes. I will say that those who are coming in 
from the industry and other areas to support the board 
membership and also the staff, they also need some support from 
the Government and also from the support structure, that the 
risk they are taking to go in, there is a reward there.
    I think currently, because of the environment, I think 
there is a lot more resistance in that area. So I believe 
strongly that we need a five member board, and it should be 
very diversified and impartial.
    Senator Carper. All right, thank you.
    And Mr. Sallman, just really quick, same question. Do you 
think it makes it easier or harder to find suitable 
replacements on the board if this Administration 3 years in a 
row has been trying to eliminate the board?
    Mr. Sallman. Certainly harder, when, why would you want to 
apply for a job when it has been proposed to be eliminated and 
not funded? This is critical work, and when these people are 
going to be responding, they are going to be dealing with a 
loss of life. They are going to be dealing with coworkers who 
signed a job application to go in and go to work, not see what 
they have seen. Those people have to bring a special talent to 
this position.
    Senator Carper. Thank you.
    One last question this round. When the Chemical Safety 
Board published its report following the Arkema Incident, it 
found that the explosions occurred in part because Arkema had 
not planned for this kind of flooding that we know climate 
change has caused and will continue to cause.
    I was on the phone last night with a young man, not so 
young anymore, but whose roots were in Delaware, his father had 
been our Congressman, and been our Mayor, Republican, but a 
close friend. The son now lives in Australia, and we talked 
about what they are going through there in terms of wildfires 
that are destroying large swaths of the country, killing 
hundreds of millions of animals, birds, and so forth.
    The question is, I want all of you to try to answer this. 
Do you believe that climate change is real, that is caused 
largely by humans, not entirely, but largely by humans and that 
it has the potential to cause future costly and dangerous 
chemical safety accidents if steps aren't taken to analyze the 
risks and protect against them?
    Mr. Sallman, would you go first?
    Mr. Sallman. Climate change already has and continues to 
cause problems in workplaces, not only from a chemical 
standpoint, but also just working conditions. More and more of 
our members talk about heat stress, heat stroke. When you look 
at the fires that have happened in California, what does that 
do to the electrical grid? If we don't have backup systems to 
protect us when things go wrong, worse things will happen.
    Senator Carper. All right, thank you.
    Mr. Kadri, please.
    Mr. Kadri. I would say that climate change has impacted. I 
do not have the expertise in that area, but I do believe that 
the, as we see, the temperature rise, that would have ultimate 
impact.
    Senator Carper. Same question, Mr. Jahn.
    Mr. Jahn. ACC believes that climate change is a global 
challenge that requires long term commitment and action by 
every segment of society. When we talk about extreme weather 
events like Hurricane Harvey, clearly, we need to have disaster 
mitigation and prevention to take those types of events into 
account.
    Senator Carper. I spoke to our witnesses, colleagues, 
before this started, and told them I am always looking for, as 
a member of this Committee, I have always looked for ways to do 
good things for our health, cleaner air, cleaner water, better 
public health for our planet with respect to climate change. 
The intersection I always look for is making progress on those 
fronts, creating jobs and economic opportunity, and that is the 
Holy Grail, the one that we are pursuing, and maybe we will 
have a chance to talk with you about that some more later on.
    Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and welcome to the 
witnesses.
    Two questions for Mr. Jahn.
    First of all, welcome to your first hearing as the new 
president. We had a very good working relationship on a 
bipartisan basis with your predecessor, Mr. Dooley, and I want 
to recognize that and thank him for that.
    One of the areas in which we had a very good bipartisan 
working relationship with Mr. Dooley was on TSCA reform, 
chemical safety reform. After the bill passed with strong 
bipartisan support and with your support and good work, your 
organization's support and good work, we then ran into 
administrative problems that I believe violated the bipartisan 
spirit of the legislation over at EPA.
    We think we have solved those problems. I have confidence 
in Alexandra Dunn, who is the new person over there.
    Can I ask your commitment that you and your organization 
will help support a fair and thorough administrative process to 
support TSCA in the same bipartisan spirit that the bill was 
passed?
    Mr. Jahn. Senator, I thank you for that warm welcome as the 
next victim here at ACC, and we look forward to working with 
you. I noticed that Senator Sullivan was here earlier. We are 
working together on some things.
    Senator Whitehouse. That is my next topic, so go ahead on 
about TSCA.
    Mr. Jahn. OK. I didn't want to steal your thunder; I 
apologize. So yes, we will commit to working with you to make 
sure that the amendments to TSCA that were passed in 2016 move 
forward in an appropriate manner. That is absolutely very 
important for us as an industry.
    Senator Whitehouse. I think it is important when you have 
bipartisan agreement on something to reward, encourage, and 
honor that bipartisan agreement by then not hopping over to the 
executive administration of that and trying to undo and cause 
damage and problems over there.
    I don't think that the ACC has been involved in that. I 
think you have been helpful, actually, at trying to get through 
that, and I hope you will continue, so thank you for that.
    So your second topic, of course, was another area where we 
have made significant bipartisan progress, and that is on the 
question of marine plastic waste, ocean plastic waste. It was 
with Cal Dooley and ACC's support that we were able to get the 
first Save Our Seas bill passed, which was a very minor piece 
of legislation in terms of its effect, but it established the 
proposition that the Senate and the Congress on a bipartisan 
basis were willing to legislate in this space, something which 
was not then a proven proposition.
    So we proved that proposition, and we focused on the worst 
offenders, which are the five Asian countries, and the ten 
foreign rivers that produce, respectively, 50 percent and 
nearly 90 percent of the ocean plastic waste.
    We then moved on and just recently, in the Senate, again, 
unanimously passed Save Our Seas 2.0, which still has to work 
its way through the House, and they have seven committees that 
want a piece of it, and it takes a little bit of doing, 
procedurally, but which I have a lot of confidence will 
actually get done.
    So, Senator Sullivan, my friend and my colleague in these 
efforts, and I are already starting to put on our thinking caps 
and organize with our staffs what Save Our Seas 3.0 should look 
like, because while 2.0 was real legislation that created a 
real difference, it is a huge problem, and it is one where I 
think we need more support from the industry. I think there is 
more room for bipartisan and perhaps even unanimous progress on 
this issue.
    I want to ask you your thoughts about a SOS 3.0. Do you 
believe there is more that needs to be done? Are you willing to 
support us in finding those things that can be done in a 
bipartisan, even unanimous fashion?
    In that regard, let me just put into the record also the 
July 19th letter of welcome that Senator Sullivan and I wrote 
to you on this topic.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Jahn. Thank you very much, and thank you for your 
leadership on this important issue. As you said, it is a 
significant global challenge, and you have our full commitment 
to work with you.
    I hope that you are correct, we will be able to work 
through those seven committees in the House, we will get that 
bill done and have some meaningful change, and then we can move 
on to 3.0. As you know, and I know you agree----
    Senator Whitehouse. That 2.0 doesn't do the trick. There is 
more to be done. It was good, but not sufficient.
    Mr. Jahn. Absolutely. As you well know, in regard to the 
Alliance to End Plastic Waste that our members have created in 
the past year and committed, publicly, private funds of $1.5 
billion throughout the chemical supply chain to solve that 
issue. So we are putting real money behind this. We are 
dedicated to the proposition, and we will work with you to move 
forward.
    Senator Whitehouse. We look forward to working with you. If 
I could note for the Chairman, I went to the Our Oceans 
Conference in Oslo as a congressional delegation of one. It was 
a strong focus at that international conference on marine 
plastic.
    Unilever, which is one of the biggest consumer products 
corporations in the world, and which has a very, very 
significant footprint in the United States, pledged then that 
they were going to go to a point where for every ounce of 
plastic that they put into the economy through their products, 
they were going to extract the same amount of plastic from the 
environment and bring it back to proper disposal, which does 
two things.
    First of all, it makes them plastic waste neutral, which is 
a very important thing for a company. And second, it creates a 
market for the plastic waste that is out there and gives 
somebody some encouragement to find, now somebody who is 
picking that stuff up has a business model to go to Unilever 
and say, you are going to need to buy a lot of this stuff to 
honor that pledge.
    So for both of those reasons, I just wanted to call out 
Unilever as one of the international players in this for having 
made what I think was a particularly strong proposal. Of 
course, I support that kind of an effort, so thank you very 
much, Chairman.
    Senator Barrasso. Well, thank you.
    Senator Whitehouse. By the way, let me thank you, because a 
lot of this happened because of your support and leadership as 
Chairman and because of the support of our Ranking Member. If 
it weren't for the leadership of the Chairman and the Ranking 
Member, none of this stuff gets done, so while I talk about 
Dan, and we do a lot of this work together, I also want to make 
sure it is clear that it is a unanimous effort.
    Senator Barrasso. Unanimous support of the Committee, 
everybody together. Also I point out, and you may have noted 
what Bill Gates had announced the other day, and I talked to 
him about it on Sunday, this program for Microsoft which is 
very similar to what you just described with regard to Unilever 
and plastics. He has said that about the carbon footprint that 
has been left by Microsoft, not going forward, but going back 
to the founding of the company in 1975.
    To do it, he is making a huge investment in the technology 
that we had been working on for carbon capture and 
sequestration and actually air capture of carbon dioxide in the 
atmosphere to then go to sequester or putting into products the 
sorts of things that we looked at in Aberdeen, Scotland, with 
the research laboratories there trying to make those products 
commercially competitive. So it is not just in plastics that it 
is happening; it seems to be happening, and this may be a new 
model.
    Senator Whitehouse. Yes. Making sure that the market works 
in these areas is, I think, our top responsibility.
    Thank you.
    Senator Barrasso. Senator Carper.
    Senator Carper. Just a follow up on Senator Whitehouse's 
comments. I think he mentioned at Oslo, he was a delegation of 
one. I would point out he probably had them outnumbered, even 
as only one.
    I want to commend Sheldon and Danny for their great 
leadership and work on this.
    There is another Senator, Senator Udall that from out in 
New Mexico has a strong interest in this issue as well. He 
focused a little bit more on root causes, which is actually one 
of the things that the Chemical Safety Board does, it focuses 
on root causes.
    It is not the time to have the conversation now, but I 
think there has to be an economic opportunity for someone to 
come along and invent, I know work is going on right now, 
probably all over the world, to come up with plastics that meet 
our needs as consumers, but actually do not degrade our 
environment. Whoever can come up with that, they will do just 
fine.
    Go ahead, Mr. Jahn.
    Mr. Jahn. If I could interject on that, that work is 
already underway, and that is happening. Members are literally 
invested billions of dollars in what we call circular economy, 
in bringing those products back in as feedstock to produce new 
product. So we are going as quickly as we possibly can on that 
issue.
    Senator Carper. I would urge you, Mr. Jahn indicated to us 
he is just now beginning to do member calls, and we welcome 
those. There was a death in his family, which we mourn and 
regret. Now that you can start seeing us, we would welcome 
that. That is maybe one of the things we can talk about, and 
you can share with us what is going on.
    I would also urge you, early in your visits here, customer 
calls with members, go see Senator Udall, just to kind of 
understand what he is thinking. I think he would welcome 
hearing what you just shared with all of us.
    Mr. Jahn. Thank you.
    Senator Carper. The idea to create a virtuous cycle, 
virtuous circle, is something I always look forward to doing. 
If we can find ways to harness economic forces that actually do 
the right thing, that is all the better.
    There is just one more issue I want to touch on, if I can. 
It is not just climate change risk that the Chemical Safety 
Board reports have made recommendations about. Many of the 
reports point out systemic safety, or chemical process 
failures, that should result in industry making changes to 
prevent similar accidents from occurring in the future.
    My question, this is really a question for all three of 
you, if you would. Since we currently have an Administration 
that we can safely assume may never take regulatory action to 
require measures to mitigate against climate change, or other 
chemical safety risks, could each of you just say a couple 
words about how important the continued existence of a fully 
funded Chemical Safety Board with five qualified and 
independent board members is?
    Mr. Jahn, would you like to lead off?
    Mr. Jahn. Certainly. So, a fully funded, fully staffed 
effective board is vital to our industry in both the 
investigations that the CSB conducts and the studies that they 
share with our industry. We feed that into our process, into 
those regional networks that we have that we share that process 
safety information, as well as the topical workshops and other 
education that we have for our industry and the requirements 
that they have under responsible care to plan, prepare for, and 
drill on response to potential incidents.
    So we take that very seriously, and it is a top priority 
for us.
    Senator Carper. Thank you.
    Mr. Kadri.
    Mr. Kadri. Yes. CCPS actually has seen the advantage and 
benefit of a fully functional Chemical Safety Board. We also 
have seen a bit of a disadvantage when the board is not 
functional. So I believe that having a fully functional 
Chemical Safety Board is very beneficial to all stakeholders. 
It is industry, it is academia, it is community, and also 
regulated sites.
    Senator Carper. You get the last word.
    Mr. Sallman. Sure. It is critical that we have a full board 
and a chair, and I say this because we have a few plants that 
we are waiting on for those reports to come. Philadelphia, Port 
Neches, Texas, where our members were exposed to the flash 
fires and the hazards.
    It is not only important to learn and improve, but it is 
also the community. Our members live in those communities, and 
when you have seen the devastation that was going on, that is 
our members' homes that you are seeing.
    This isn't just a workplace issue. This is also an 
environmental issue that is important to our members because 
people live in those communities.
    We are also watching the inspection that is going on and 
the investigation with the box company, where a pressure vessel 
exploded. We are the largest union in the paper sector, that we 
don't represent that workplace, but we are eagerly awaiting the 
results of that, so that we can take those lessons learned and 
apply it to all of our other workplaces, so that nobody has to 
go through that again, or the community.
    Senator Carper. Mr. Sallman, at one point in your 
testimony, I think you used a term, hot work, I think you 
called it hot work. Would you just take a minute and tell us 
what that means?
    I have some ideas in my own life what hot work is. I used 
to be a midshipman in the Navy. My freshman midshipman cruise, 
I was on a destroyer, and they put all the young midshipmen 
down in the engine room. There was one large blower that 
actually brought cool air down to one place. The Chief Petty 
Officer always stood there, and the rest of us just sweltered, 
and that was some of the hottest work I have ever done, but I 
want to hear what you are talking about when you say hot work.
    Mr. Sallman. Sure, great question, and I can elaborate. Hot 
work is anytime you are doing cutting, grinding, welding, 
anything that could produce a spark or heat as a source of 
ignition.
    And that is important to us because we have learned the 
hard way. As I have mentioned in my testimony, my very first 
exposure to a triple fatality involved hot work, where one of 
our members noticed that there was a problem with a flinger on 
top of the tank. He knew that the bolts had broken loose on the 
flanges, and so they had to go up there and repair that by 
welding.
    In the headspace of that tank was hydrogen, and our members 
did not know. They were thinking it is water and recycled pulp, 
I mean, boxes that you would collect from anywhere in a store, 
you would put it in there, you basically heat that up. Then 
that basically decay created that hydrogen gas in the headspace 
of the tank. So while they were welding, all of a sudden, they 
felt the tank start to rumble, and they heard noises, and then 
it literally blew up on them and ended up taking the lives of 
three members.
    The importance about understanding the hot work, I will 
tell you how far this went, we not only followed that from the 
tank, we followed it through the entire process, where that 
content went. And lo and behold, we found out, even on our 
process machines, that we were having that hydrogen gas 
elsewhere in the facility. So now we had to expand our hot 
work, not only from tanks, but also to the process of 
equipment.
    Had we not had the learnings from the CSB, we may not have 
been able to make those corrective actions using the hierarchy 
of controls.
    Senator Carper. All right, thank you. Thank you for that 
explanation. We have some hot work of our own to do later 
today. We thank you for your testimony and for the work that 
you do.
    Mr. Sallman. Thank you.
    Senator Carper. We look forward to working with you on 
other issues.
    Chris, congratulations on being named to succeed a very 
good man.
    Mr. Jahn. Thank you.
    Senator Barrasso. Let me just finish off with a couple of 
questions. One for all of you.
    Currently we are out a chairperson, only two sitting 
members. Last summer, President Trump nominated Katherine Lemos 
to serve as chairperson; the Committee approved her nomination, 
unanimous basis in September. If she is not confirmed by next 
week, the board will lose its quorum and will be severely 
impaired.
    Is it fair to say that you all agree that we should not let 
the Chemical Safety Board be reduced to one member?
    Mr. Jahn. Yes.
    Mr. Kadri. I agree.
    Mr. Sallman. Yes.
    Senator Barrasso. And then, the other issue is how you can 
recruit good people to serve in some of these Government 
positions. What we continue to hear is, there is just so much 
uncertainty that the confirmation process itself can in some 
way discourage highly qualified individuals from seeking to 
serve on the Chemical Safety Board. I would just be interested 
in hearing from the three of you on that.
    Mr. Jahn. I would salute you all, and the House as well, in 
terms of your leadership of continuing supporting the mission 
of the board, fully funding it, and in fact, increasing funding 
for that and sending that message out to this community that 
this is a priority. It is an important mission, and that it has 
had the full faith and support from this Committee.
    I think that sends a tremendous message, and that we try to 
amplify to our community.
    Mr. Kadri. I think you picked up a good point, as how would 
you attract the right level of people. Now, CCPS has 225 
corporate members, and each of those corporate members actually 
provide us the lead process safety individual in our committee.
    Many of them would be well qualified individuals and would 
be interested. But I think that the current environment 
actually would have some resistance.
    Senator Barrasso. Mr. Sallman, anything you would like to 
add?
    Mr. Sallman. I would encourage outreach to find people and 
help them understand what these positions are, and look for a 
diverse group of people. We have even talked to management 
counterparts that we have good relationships and work well with 
them, and some of those people have since retired out of the 
health and safety movement.
    There is a lot of talent on there that could be harvested 
and work at these facilities. But if they are going to go to 
this agency, and work, they need to know that Congress has 
their back, that they are going to be funded, and that they are 
going to have the support and the resources that they need to 
perform their jobs and do it well.
    Senator Barrasso. I ask for unanimous consent to enter into 
the record a letter from the American Chemical Society in 
support of confirming Dr. Lemos and advancing additional 
nominees.
    Without objection, that will be added.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Barrasso. There are no more questions. You may get 
questions in writing--there may be another question.
    Senator Carper. Not a question, just a quick thing.
    I said as an aside to the Chairman, several minutes ago, 
that we are going to meet, hopefully soon when the impeachment 
process has concluded.
    But one of the things that I hadn't thought would be on an 
agenda, a good agenda item, just this is figuring out how we 
get not just avoid having one person on the board, we really 
need five. We need five, fully well qualified people.
    I understand that, and correct me if I am wrong, but if the 
board is reduced to one member in August, it will be reduced to 
one member in August, if Kristen Kulinowski is not confirmed, I 
think that is true. Can you check me on that?
    Mr. Jahn. We will follow up on that.
    Senator Carper. OK, if you would, for the record, thank 
you.
    Thanks so much.
    Senator Barrasso. Thank you.
    Senator Whitehouse, anything else?
    Senator Carper. Maybe if she is not renominated, I think.
    Mr. Jahn. I believe that is correct.
    Senator Carper. I think that is correct.
    All right, thank you.
    Senator Barrasso. Well, members may submit questions for 
the record. I know a number of members are at the White House 
for the signing of the USMCA.
    The hearing record is going to remain open for 2 weeks.
    I want to thank all of you for being here, for your time, 
and your testimony.
    The hearing is adjourned.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
                                 <all>
</pre></body></html>
